No. _ __
DAMONTAZE MONTRELL TILLERY,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT
On this 23 rd day ofNovember, 2020, I, Anthony G. Lantagne, hereby certify
that this Petition for Writ of Certiorari was sent this same day via Federal Express
Overnigh t Delivery to the Supreme Court of the United States. I further certify
that I have served this same date the required copies via USPS First Class Mail
and email to the counsel of record listed below:
Solicitor General of the United States
United States Department of J ustice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 23rd day ofNovember, 2020.

Anthon
Lantagn egal P · mg, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-04 77

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anthony G. Lantagne appeared before me this 23rd day of November, 2020, and
attested that the foregoing affidavit is true and exact t
be
fhis knowledge
and belief.

